                                    UNITED STATES
                        NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001




OFFICE OF THE
INSPECTOR GENERAL
                                     March 31, 2014




MEMORANDUM TO:             Chairman Macfarlane



FROM:                      Hubert T. Bell /RA/
                           Inspector General


SUBJECT:                   TRANSMITTAL OF THE INDEPENDENT AUDITORS’
                           REPORT ON THE CONDENSED FINANCIAL
                           STATEMENTS (OIG-14-A-13)


Office of Management and Budget Circular No. A-136, Financial Reporting
Requirements, Revised, October 21, 2013, requires all entities covered under The Chief
Financial Officers Act of 1990 to prepare a summary of performance and financial
information which summarizes performance and accountability results for the fiscal
year. The summary report should include the most important performance and financial
information contained in NRC’s Performance and Accountability Report in a brief, user-
friendly format that is easily understood by a reader with little technical background in
these areas. The purpose of this memorandum is to transmit CliftonLarsonAllen LLP
(CLA) Auditors’ Report on the Condensed Financial Statements. NRC publishes this
report and condensed financial statements as part of the Fiscal Year 2013 Summary Of
Performance And Financial Information.

CLA is responsible for the attached auditor’s opinion, dated March 26, 2014. The Office
of the Inspector General (OIG) is responsible for technical and administrative oversight
regarding the firm’s performance under the terms of the contract. Our oversight of
CLA’s work, as differentiated from an audit in conformance with Government Auditing
Standards, was not intended to enable us to express, and accordingly we do not
express, an opinion on the condensed financial statements included in the summary
report. However, OIG’s oversight of CLA’s work disclosed no instances where CLA did
not comply with applicable auditing standards.

We appreciate the cooperation provided by NRC staff.
Attachment: As stated

cc:   Commissioner Svinicki
      Commissioner Apostolakis
      Commissioner Magwood
      Commissioner Ostendorff
      K. Brock, OEDO
      J. Arildsen, OEDO
      C. Jaegers, OEDO
      RidsEdoMailCenter
                                                                     CliftonLarsonAllen LLP

                                                                     www.cliftonlarsonallen.com




              Independent Auditors’ Report on Condensed Financial Statements

Inspector General
United States Nuclear Regulatory Commission

Chairman
United States Nuclear Regulatory Commission


The accompanying condensed financial statements, which comprise the condensed balance
sheets as of September 30, 2013 and 2012, the statement of net cost and condensed statement
of changes in net position for the years then ended are derived from the audited financial
statements of the United States Nuclear Regulatory Commission (NRC) as of and for the years
ended September 30, 2013 and 2012. We expressed an unmodified audit opinion on those
audited financial statements in our report dated December 2, 2013. The audited financial
statements, and the condensed financial statements derived therefrom, do not reflect the effects
of events, if any, that occurred subsequent to the date of our report on the audited financial
statements.

The condensed financial statements do not contain the statement of budgetary resources and
all the disclosures required by accounting principles generally accepted in the United States of
America. Reading the summary financial statements, therefore, is not a substitute for reading
the audited financial statements of NRC.

Management's Responsibility for the Condensed Financial Statements

Management is responsible for the preparation of the condensed financial statements in
accordance with accounting principles generally accepted in the United States of America.

Auditor's Responsibility

Our responsibility is to express an opinion about whether the condensed financial statements
are consistent, in all material respects, with the audited financial statements based on our
procedures, which were conducted in accordance with auditing standards generally accepted in
      Independent Auditors’ Report on Condensed Financial Statements (Continued)



the United States of America; and the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States. The
procedures consisted principally of comparing the condensed financial statements with the
related information in the audited financial statements from which the condensed financial
statements have been derived, and evaluating whether the condensed financial statements are
prepared in accordance with accounting principles generally accepted in the United States of
America. We did not perform any audit procedures regarding the audited financial statements
after the date of our report on those financial statements.

Opinion

In our opinion, the condensed financial statements of the NRC as of and for the years ended
September 30, 2013 and 2012 referred to above are consistent, in all material respects, with the
audited financial statements from which they have been derived.

Other Reporting Required by Government Auditing Standards

In accordance with Government Auditing Standards, our report on the audited financial
statements referred to above includes an opinion on the effectiveness of internal control over
financial reporting and a report on compliance with laws and regulations for the years ended
September 30, 2013 and 2012. Those reports are an integral part of a financial statement audit
performed in accordance with Government Auditing Standards in considering NRC’s internal
control over financial reporting and compliance.




Arlington, Virginia

March 26, 2014
                NRC Fiscal Year 2013 Condensed Financial Statements




(Extracted from NRC’s Fiscal Year 2013 Summary Performance and Accountability Report)
CONDENSED FINANCIAL STATEMENTS


Condensed Balance Sheet* (In Thousands)
As of September 30,                                                2013            2012
Assets
Fund balance with Treasury                                    $   318,244     $   357,529
Accounts receivable, net                                           91,808         100,606
Property and equipment, net                                       107,771          99,982
Other                                                               4,952          11,750
   Total Assets                                               $   522,775     $   569,867
Liabilities
Accounts payable                                              $    38,048     $    43,172
Federal employee benefits                                           7,023           7,224
Other                                                              74,427          74,197
   Total Liabilities                                              119,498         124,593
Net Position
Unexpended appropriations                                         242,640         285,080
Cumulative results of operations                                  160,637         160,194
   Total Net Position                                             403,277         445,274
Total Liabilities and Net Position                            $   522,775     $   569,867


Statement of Net Cost* (In Thousands)
For the years ended September 30,                                  2013            2012
Nuclear Reactor Safety and Security
Gross costs                                                   $    831,114    $    824,091
Less: Earned revenue                                              (760,283)       (815,701)
   Total Net Cost of Nuclear Reactor Safety and Security            70,831           8,390
Nuclear Materials and Waste Safety and Security
Gross costs                                                       232,011         228,000
Less: Earned revenue                                              (91,959)        (88,630)
   Total Net Cost of Nuclear Materials and Waste Safety and
                                                                  140,052         139,370
   Security
Net Cost of Operations                                        $   210,883     $   147,760
CONDENSED FINANCIAL STATEMENTS


Condensed Statement of Changes in Net Position* (In Thousands)
For the years ended September 30,                                                 2013                 2012
Cumulative Results of Operations
Beginning Balance                                                          $     160,194         $    105,193

Budgetary Financing Sources                                                       176,651              169,753

Other Financing Sources                                                            34,675               33,008

Net Cost of Operations                                                           (210,883)            (147,760)
Net Change                                                                            443               55,001
Cumulative Results of Operations                                           $      160,637        $     160,194

Unexpended Appropriations
Beginning Balance                                                           $    285,080         $    310,332

Budgetary Financing Sources                                                       (42,440)             (25,252)

Total Unexpended Appropriations                                                  242,640              285,080
Net Position                                                                $    403,277         $    445,274
* For a complete set of financial statements and notes, see Chapter 3, “Financial Statements and Auditors’ Report”
  beginning on page 75 of the Fiscal Year 2013 Performance and Accountability Report. This report can be accessed
  on the NRC Web site at http://www.nrc.gov/reading-rm/doc-collections/nuregs/staff/sr1542/.
